            U.S. Department of
                                                                     Memorandum
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General


Subject:   INFORMATION: Management Advisory—                                                    Date:    September 24, 2013
           Suspended or Debarred Firms Are Listed on State
           DBE Directories as Eligible for DBE Participation

  From:    Mary Kay Langan-Feirson                                                           Reply to
                                                                                             Attn. of:   JA-60
           Assistant Inspector General for Acquisition and
             Procurement Audits

    To:    Director, Departmental Office of Civil Rights
           Director, Office of Small and Disadvantaged Business Utilization
           Acting General Counsel, Office of the General Counsel

            The Department of Transportation (DOT) Office of Inspector General (OIG) is
            providing this advisory to inform you of an issue related to our recent audit of the
            Department’s Disadvantaged Business Enterprises (DBE) program 1 and our ongoing
            audit of the Suspension and Debarment (S&D) program 2 that warrants immediate
            attention. Specifically, our review of 26 State DBE directories identified 3 suspended
            or debarred firms that are listed in State DBE directories as eligible to participate in
            the DBE program. Federal regulations explicitly exclude suspended or debarred firms
            from receiving federally funded contracts. 3 Because DOT lacks sufficient DBE
            guidance to help State and local transportation agencies safeguard against federally
            funded awards to firms that are suspended or debarred, instances like those we found
            point to the possibility that other ineligible firms may be listed on State DBE
            directories. In addition, DBE certification and oversight weaknesses further increase
            the risk that DBE work may be awarded to suspended or debarred firms.




            1
              The DBE program was created to help socially and economically disadvantaged individuals who own and control small
            businesses to participate in contracting opportunities within DOT financial assistance programs.
            2
              OIG Project No. 13Z3004Z000, announced March 13, 2013. Suspensions and debarments are actions taken to exclude
            firms or individuals from receiving Federal contracts or assistance, as a result of actual or alleged contractor misconduct
            such as poor performance, fraud, corruption, bribery, or Federal tax delinquency.
            3
              2 Code of Federal Regulations (CFR) § 180.
                                                                                                                           2


The observations in this advisory could serve to strengthen the Department’s controls
for preventing suspended or debarred firms from receiving federally funded DBE
awards. Our detailed observations are included below.


THREE SUSPENDED OR DEBARRED FIRMS ARE LISTED IN STATE
DIRECTORIES AS ELIGIBLE FOR DBE PARTICIPATION
DBE program regulations require State and local transportation agencies to maintain
DBE directories that list all firms eligible to participate in the DBE program.
However, our review of 26 State DBE directories identified 3 suspended or debarred
firms that should be excluded from receiving federally funded contracts. Specifically,
we compared the firms in 26 State DBE directories 4 to those in the Governmentwide
excluded parties list—called the System for Award Management (SAM)—with active
exclusion actions as of July 2, 2013. Exclusion actions include suspension, suspension
with proposed debarment, debarment, and voluntary exclusion. These actions are a
result of actual or alleged contractor misconduct, such as poor performance, fraud,
corruption, bribery, or Federal tax delinquency. Our review found that the following
three firms with active exclusion actions were included in five State DBE directories:

• FIRM A is listed in three States’ DBE directories—New York, New Jersey, and
  Maryland. However, the Federal Highways Administration suspended this firm
  with proposed debarment on February 3, 2012, as a result of a mail fraud
  indictment; the firm was officially debarred on June 12, 2013. The owner of Firm
  A, a DBE firm, made false statements claiming to have supplied structural steel on
  Federal contracts when in reality a non-DBE contractor had provided the steel.
  These false statements allowed the non-DBE contractor to claim as much as
  $6 million toward its DBE goals. 5 The officials from the Port Authority of New
  York/New Jersey informed us that they are currently working on a letter intended
  to decertify Firm A. However, Maryland’s DBE certifying agency was unaware of
  the firm’s active debarment. The firm remains on the three States’ DBE
  directories—20 months after the firm was first suspended—increasing the risk that
  the firm could be awarded federally funded DBE work.

• FIRM B is listed in New York’s DBE directory. However, the General Services
  Administration suspended the firm on June 17, 2013, as a result of implication by
  affiliation with another firm that was accused of falsifying corporate and tax
  documentation with the intent to defraud. New York Department of Transportation
  (NYDOT) officials were unaware of the firm’s suspension until we spoke with

4
  We reviewed all State DBE directories that could be readily exported for comparison with the Governmentwide excluded
parties list (SAM). See exhibit A for a list of these 26 States.
5
  States sometimes establish individual DBE participation goals for individual contracts. Contractors are required to make a
good faith effort to meet these goals.
                                                                                                                         3


    them about our finding. About 2 months before Firm B’s suspension became
    effective, it was awarded an $8.1-million DBE subcontract as part of a
    $146-million bridge rehabilitation contract. 6

• FIRM C is listed in Texas’s DBE directory. However, the Department of Labor
  debarred this firm on February 2, 2012, due to a violation of the Service Contract
  Act for failing to pay federally required wages on a service contract. Officials
  from South Central Texas Regional Certification Agency were unaware of the
  firm’s active debarment.

We identified the 3 firms in a limited search of 26 State DBE directories; therefore, it
is possible that more suspended or debarred firms may be listed in other States’ DBE
directories as eligible to participate in the DBE program. The methodology we used
required exact matches in firms’ names—for example, a search for “AB
Construction” in SAM would not have included results for “A.B. Construction.”
Therefore, the total number of suspended or debarred firms currently listed in State
DBE directories may be significantly higher than our initial review indicates.


THE DBE PROGRAM DOES NOT HAVE ADEQUATE POLICIES AND
GUIDANCE TO PROTECT AGAINST FEDERALLY FUNDED
AWARDS TO SUSPENDED OR DEBARRED FIRMS
In our April 23, 2013, audit report on the Department’s DBE program, we reported
that the Department lacks comprehensive and standardized DBE program guidance
for the State and local transportation agencies (known as recipients) that implement
the DBE program. 7 Our recent work has shown that DOT also lacks sufficient DBE
guidance and training to safeguard against federally funded awards to firms that are
suspended or debarred.

DOT does not provide guidance to recipients regarding the suspension and debarment
of DBE firms. For example, DBE regulations do not specify whether recipients should
decertify suspended or debarred firms—that is, revoke the firms’ eligibility to
participate in the DBE program. As a result, NYDOT was unsure whether to decertify
Firm B after learning that the firm had been suspended. On September 6, 2012, the
Department issued a Notice of Proposed Rulemaking (NPRM) to seek comments on
the relationship between decertification and suspension and debarment. However, the
Department has not yet issued its final rule. In addition, the DBE regulation and
DOT’s online Q&A guidance do not reference the Federal regulations on Debarment,

6
  Although a suspended or debarred firm can continue to work on contracts awarded before an exclusion action is effective,
Federal regulations prohibit renewals or extensions to the original contract.
7
  Weaknesses in the Department’s Disadvantaged Business Enterprise Program Limit Achievement of Its Objectives (OIG
Report No. ZA-2013-072), Apr. 23, 3013. OIG reports are available on our Web site at http://www.oig.dot.gov.
                                                                                      4


Suspension, and Ineligibility, 8 and the DBE Program does not provide training on
suspension and debarment.

Without adequate guidance or training, recipients may not know the appropriate
actions to take when a DBE firm is suspended or debarred. For example, after we
notified NYDOT of Firm B’s suspension, the agency was uncertain how to proceed
with a planned $8.1-million DBE subcontract awarded to that firm. NYDOT’s
contracting staff had checked for Firm B in SAM before awarding the subcontract.
However, Firm B’s suspension was not in effect at the time, so the firm was not yet
on the list. According to Federal regulations, 9 a suspended or debarred firm is allowed
to continue to work on contracts that were awarded before an exclusion action;
however, the regulations prohibit renewals or extensions to the original contract.
Without guidance from DOT, the agency’s contracting staff risked unknowingly
violating Federal regulations by adding new work to the DBE subcontract.

Further, DOT has not established a process for alerting recipients of suspended or
debarred firms, which would help prevent firms that are ineligible for Federal
contracts from being listed in State DBE directories as eligible for DBE participation.
DOT’s Office of Civil Rights has recently implemented a nationwide DBE
Ineligibility Determination Online Database, which all recipient certifying agencies
can access. The certifying agencies enter the names of firms whose DBE certifications
have been denied or revoked into this database. Each certifying agency is also
required to check the database every month for firms that are applying for DBE
certification, or are already certified, with the agency. DOT could consider entering
the names of suspended and debarred firms into this existing database to help alert
recipients of these firms.


EFFORTS TO STRENGTHEN DBE CERTIFICATION AND
OVERSIGHT CONTROLS COULD REDUCE THE RISK OF
INELIGIBLE FIRMS RECEIVING FEDERAL FUNDS
In our April 2013 report, we reported weaknesses in recipient DBE certification and
oversight practices—particularly regarding annual affidavits of no change and on-site
certification reviews. The Department’s ongoing efforts to strengthen these
practices—in response to our recommendations—could help prevent ineligible firms
from receiving federally funded DBE awards. .

We reported that recipients frequently do not enforce the requirement that firms
submit annual affidavits of no change. These affidavits are forms disclosing whether
there are material changes in the information that the firms provided in their

8
    2 CFR § 180 and 1200.
9
    2 CFR § 180.315.
                                                                                        5


certification applications or any other changes in circumstances that affect their ability
to meet DBE eligibility requirements. The DBE certification application specifically
asks whether a firm or any of its owners have ever been suspended or debarred.
Therefore, suspended or debarred DBE firms must disclose their excluded status on
annual affidavits, or risk penalty or perjury under United States law. Our discussions
with recipients determined that Firm A and Firm C did not submit their required
annual affidavits; yet, the firms remain certified despite noncompliance with DBE
regulations. If done correctly, annual affidavits could alert recipients of firms’
suspensions and debarments. However, firms do not always honestly and accurately
complete these forms. For example, Firm B submitted its annual affidavit 6 days after
its suspension became effective but did not disclose that it had been suspended.

We also reported that recipients do not consistently perform required on-site
certification reviews to verify statements in a firm’s DBE certification application or
annual affidavit. These on-site reviews can involve visits to the office of the firm,
interviews with the principal officers, reviews of equipment and licenses, and visits to
job sites. In a January 2011 final rule on DBE regulations, DOT stated that regular on-
site certification reviews are an extremely important tool to help recipients prevent
fraudulent firms or firms that no longer meet eligibility requirements from
participating in the DBE program. However, the Department did not mandate how
often recipients were to conduct these reviews. Our review determined that the most
recent on-site certification reviews for Firms A, B, and C were performed in 2008—5
years ago.

Annual affidavits of no change and on-site reviews are additional control tools to help
detect falsified information on firms’ certification applications and annual affidavits.
Thus, efforts to strengthen these practices could discourage firms from making
dishonest statements about their excluded status and help prevent suspended and
debarred firms from receiving federally funded DBE awards.


CONCLUSION
Suspension and debarment actions are among the Government’s strongest tools to
deter unethical and unlawful use of Federal funds. Since DOT distributes several
billion dollars annually through its DBE program, it is important that the Department
strengthen its controls to ensure that suspended and debarred firms—such as those
identified in our ongoing review—do not participate in the DBE program. The
Department should consider the observations in this management advisory as it
develops additional DBE guidance and training to address recommendations from our
April 2013 audit report.
                                                                                6


Thank you for your attention to these important issues. If you have any questions
regarding this review, please contact me at (202) 366-5225 or Terry Letko, Program
Director, at (202) 366-1478.

                                           #

cc:   Deputy Secretary (S-2)
      DOT Audit Liaison (M-1)
                                               7


EXHIBIT A. 26 STATE DBE DIRECTORIES REVIEWED

1.   Alabama
2.   Alaska
3.   Arizona
4.   California
5.   Colorado
6.   Delaware
7.   Florida
8.   Georgia
9.   Idaho
10. Illinois
11. Indiana
12. Maine
13. Maryland
14. Massachusetts
15. Michigan
16. Minnesota
17. Missouri
18. Montana
19. New Jersey
20. New Mexico
21. New York
22. North Carolina
23. Rhode island
24. South Carolina
25. Vermont
26. Washington




Exhibit. 26 State DBE Directories Revi ew ed
